<html>
<title> - TERRORISM: EMERGENCY PREPAREDNESS</title>
<body><pre>[Senate Hearing 109-222]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-222
 
                   TERRORISM: EMERGENCY PREPAREDNESS

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON TERRORISM, TECHNOLOGY
                         AND HOMELAND SECURITY

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 26, 2005

                               __________

                          Serial No. J-109-46

                               __________

         Printed for the use of the Committee on the Judiciary




                    U.S. GOVERNMENT PRINTING OFFICE
25-378                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 ARLEN SPECTER, Pennsylvania, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
SAM BROWNBACK, Kansas                RICHARD J. DURBIN, Illinois
TOM COBURN, Oklahoma
                       David Brog, Staff Director
                     Michael O'Neill, Chief Counsel
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director
                                 ------                                

      Subcommittee on Terrorism, Technology and Homeland Security

                       JON KYL, Arizona, Chairman
ORRIN G. HATCH, Utah                 DIANNE FEINSTEIN, California
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JOHN CORNYN, Texas                   JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               RUSSELL D. FEINGOLD, Wisconsin
LINDSEY O. GRAHAM, South Carolina    RICHARD J. DURBIN, Illinois
                Stephen Higgins, Majority Chief Counsel
                 Steven Cash, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cornyn, Hon. John, a U.S. Senator from the State of Texas........    19
    prepared statement...........................................    42
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................     3
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona..........     1
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................    62

                               WITNESSES

Bettenhausen, Matthew R., Director, California Office of Homeland 
  Security, Sacramento, California...............................    11
Gorton, Hon. Slade, 9/11 Public Discourse Project, Seattle, 
  Washington.....................................................     4
O'Hanlon, Michael, Senior Fellow and Co-Holder, Sydney Stein 
  Chair, Foreign Policy Studies Program, Brookings Institution, 
  Washington, D.C................................................    14
Renteria, Henry R., Director, California Governor's Office of 
  Emergency Services, Mather, California.........................     9
Thomas, Wayne C., Vice President, Homeland Security, Innovative 
  Emergency Management, Inc., Baton Rouge, Louisiana.............     7

                         QUESTIONS AND ANSWERS

Responses of Michael O'Hanlon to questions submitted by Senator 
  Biden..........................................................    34

                       SUBMISSIONS FOR THE RECORD

Bettenhausen, Matthew R., Director, California Office of Homeland 
  Security, Sacramento, California, prepared statement...........    37
Department of the Treasury, Office of Economic Policy, 
  Washington, D.C., report.......................................    48
Gorton, Hon. Slade, 9/11 Public Discourse Project, Seattle, 
  Washington, prepared statement.................................    56
O'Hanlon, Michael, Senior Fellow and Co-Holder, Sydney Stein 
  Chair, Foreign Policy Studies Program, Brookings Institution, 
  Washington, D.C., prepared statement...........................    64
RAND Corporation, Santa Monica, California, research brief.......    84
Renteria, Henry R., Director, California Governor's Office of 
  Emergency Services, Mather, California, prepared statement.....    87
Thomas, Wayne C., Vice President, Homeland Security, Innovative 
  Emergency Management, Inc., Baton Rouge, Louisiana, prepared 
  statement and attachments......................................    95


                   TERRORISM: EMERGENCY PREPAREDNESS

                              ----------                              


                      WEDNESDAY, OCTOBER 26, 2005

                                       U.S. Senate,
        Subcommittee on Terrorism, Technology and Homeland 
                      Security, Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:32 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Jon Kyl, 
Chairman of the Subcommittee, presiding.
    Present: Senators Kyl, Cornyn, Feinstein, and Durbin.

  OPENING STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE 
                        STATE OF ARIZONA

    Chairman Kyl. Good morning and welcome to the Subcommittee 
on Terrorism, Technology, and Homeland Security of the Senate 
Judiciary Committee. We are pleased to have all of you here 
this morning for what I think is going to be an enlightening 
and very important hearing.
    Let me begin by noting that Senator Feinstein and I will 
make opening statements. If Senator Cornyn arrives at an 
appropriate time, I will call upon him for an opening 
statement, too, and then we will go right to our witnesses. We 
have one panel today, but I suspect that that one panel will 
engage in a pretty complete and lively discussion and there is 
no time constraint here is the main point I wanted to make.
    Hurricane Katrina exposed the weakness of our Nation's 
emergency preparedness. As reported in an October 20 Washington 
Post article, Homeland Security Secretary Michael Chertoff 
acknowledged that Hurricane Katrina overwhelmed FEMA, exposing 
major flaws in the nation's preparedness for terrorism and 
natural disasters. Secretary Chertoff vowed to reengineer U.S. 
preparedness.
    We have learned a lot in the weeks since Hurricane Katrina. 
Today, this Subcommittee will focus on the question of whether 
we are prepared for a possible terrorist attack involving 
problems similar to those caused by the natural disaster in the 
Gulf Coast. A moderately sophisticated terrorist attack could 
easily replicate the type and amount of damage caused by this 
natural disaster, I believe, though I will ask you all whether 
that is, in fact, correct, and the response would be even more 
difficult to coordinate because we wouldn't have much time in 
terms of warning, if any, as to when or where such an attack 
might occur.
    The objective of this hearing is to gain a better 
understanding of the types of terrorist attacks that could 
still take place, specifically those that could have an impact 
similar to Hurricane Katrina's, the key success factors in 
planning for and responding to an attack, the emergency 
preparedness of the Federal Government and how it should work 
with State and local authorities to respond effectively, and 
any existing shortfalls that need attention by State, local, 
and Federal authorities to improve readiness.
    This Subcommittee on Terrorism, Technology, and Homeland 
Security has held numerous hearings about terrorist attack, 
such as attacks against seaports, attacks with biological 
weapons, and attacks against critical information 
infrastructure. Earlier this year, the Subcommittee held a 
hearing on the potentially devastating impact of an 
electromagnetic pulse explosion.
    Today, the Subcommittee will examine what should be done to 
achieve an immediate, effective, and successful response to 
terrorist attacks. The Subcommittee will hear from five expert 
witnesses, one former Senator and member of the 9/11 
Commission, a private sector expert, two State officials from 
California, and a scholar from the Brookings Institution. 
Senator Feinstein will introduce the two California witnesses 
in her opening statement and I will introduce the other members 
of the panel.
    I will begin with former Senator Slade Gorton. He has 
served in public office for four decades, 18 of those years 
here in the U.S. Senate. Late in 2002, then-Majority Leader 
Trent Lott appointed him to the National Commission on 
Terrorist Attacks upon the United States, where he served with 
distinction and played a prominent role in formulating the 
final report. He will testify to the Commission's findings and 
warnings about preparedness for terrorist attacks.
    Wayne Thomas is Vice President of Homeland Security for 
Innovative Emergency Management, IEM, a Louisiana-based private 
corporation focused on improving emergency preparedness at 
Federal, State, and local levels. IEM has particular expertise 
planning for responses to natural disasters and attacks 
involving weapons of mass destruction. Founded in 1985, IEM has 
worked with Federal organizations such as the Office of 
Domestic Preparedness, the Federal Emergency Management Agency, 
and the Department of Defense, as well as State and local 
emergency management agencies in more than 25 States. Before 
joining IEM, Mr. Thomas was administrator of the chemical 
demilitarization program for the Oregon Department of 
Environmental Quality.
    Michael O'Hanlon is a Senior Fellow at the Brookings 
Institution and he formerly worked at the Congressional Budget 
Office. He specializes in defense issues, leads the work on 
Brookings' Iraq Index, and has served as team leader on two 
Brookings studies on homeland security in the last 3 years. The 
latest Brookings study on homeland security is expected to be 
published early in 2006. Dr. O'Hanlon received a Ph.D. in 
public and international affairs from Princeton University. He 
is also a visiting lecturer at the Woodrow Wilson School at 
Princeton University.
    As I said, Senator Feinstein will introduce our two 
California guests today.
    One final note about the witnesses at today's hearing. I 
want to point out that I invited officials from both the 
Department of Homeland Security and the Department of Defense 
to testify. A witness from DOD was prepared to testify, but 
DHS, the agency charged with leading the response in the wake 
of an attack, informed me that FEMA was too busy at this time 
to send a witness and that no other witness could be made 
available. DOD was not inclined to send a witness if DHS 
witnesses were not going to testify. I find this regrettable, 
but look forward to hearing from both DHS and DOD in the 
future.
    The United States must be prepared to respond to terrorist 
attacks. Hurricane Katrina exposed the weaknesses in our 
Nation's emergency preparedness. We must determine whether 
similar problems could occur with a terrorist attack.
    I would like to thank Senator Feinstein, as usual, for 
helping me prepare for and plan for this hearing. She and I see 
eye to eye on matters of national security and the need to 
respond to terrorist attacks and it is always a privilege to 
work with her in a very bipartisan way on this problem that, 
after all, confronts all Americans equally.
    Senator Feinstein, thank you. The floor is yours.

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. Thank you, Mr. Chairman. I appreciate 
the comments and I respond to them in kind. I thank you very 
much for holding these hearings. I thank our witnesses. It is 
certainly great to see Slade Gorton again. Welcome back. I will 
make my remarks very brief.
    September 11 is now 4 years away, and since that time, it 
has been commonplace to say everything has changed since 
September 11. And one thing that was supposed to change was our 
readiness to respond to a catastrophe. With that in mind, the 
Department of Homeland Security was forged and a large number 
of departments were put together with a total of some 22,000 
employees. It was supposed to be strengthened. The ability to 
plan was supposed to have been made greater.
    I increasingly believe that at least with respect to 
emergency preparedness, September 11 did not change everything. 
I think Hurricane Katrina is testimony to that. With Hurricane 
Katrina, it was 5 days' warning, and yet there was not the 
ability to evacuate and there certainly was not the ability to 
respond adequately. That lack of response was inadequate on all 
levels, local, State, as well as Federal.
    So today, we examine the question, are we adequately 
prepared? This isn't an academic debate. This is what could 
happen in the wake of a terrorist attack or a huge natural 
disaster on one of our cities. If the government response to 
Katrina is any indication, it would be a time of chaos and 
confusion with American life at risk.
    I was pleased to see from Senator Gorton's prepared 
testimony that he and the 9/11 Public Discourse Project have 
strongly endorsed efforts to require that scarce homeland 
security resources be allocated based on the best possible risk 
analysis. This is an assessment of threat, vulnerability, and 
consequence, and as you know, Senator, we haven't achieved that 
yet because everyone wants their part of the homeland security 
pie regardless of whether the assessment of threat, 
vulnerability, and consequence indicates that they should have 
part of that pie.
    I am the original cosponsor, along with Senator Cornyn, of 
Senate legislation to accomplish this. This legislation was not 
approved by the Senate. The companion legislation passed the 
House overwhelmingly and is now being considered as part of the 
USA PATRIOT Reauthorization Act conference.
    I also hope that our witnesses will address the questions 
that I think most Americans share. Is the level of preparedness 
for catastrophe higher than it was in 2001? Have things, in 
fact, improved? If so, how did things go so horribly wrong in 
Louisiana and what needs to be done to make us safer?
    It is my pleasure to introduce our two distinguished 
panelists from my State, the State of California, Henry 
Renteria, Director of the State's Office of Emergency Services, 
and Matthew Bettenhausen, Director of the Governor's Office of 
Homeland Security. Respectively, they are charged with the 
operations and policies of the State of California in 
responding to disaster.
    Over the course of 19 years as the head of the city of 
Oakland's Office of Emergency Services, Henry Renteria 
coordinated Oakland's response to eight Federal emergencies, 
including the Loma Prieta earthquake of 1989. That is the one 
in which a section of the Oakland Bay Bridge came down. More 
recently, he led the recovery efforts in San Joaquin County 
when a levee collapsed, flooding thousands of acres of 
farmland.
    Matt Bettenhausen is a former Deputy Governor of Illinois 
with extensive law enforcement experience as a Federal 
prosecutor. He played a critical role in the development of the 
Department of Homeland Security as the first Director of State 
and Territorial Coordination, establishing the procedures 
linking State and Federal homeland security efforts.
    Thank you very much, Mr. Chairman. I think we are ready for 
our witnesses.
    Chairman Kyl. Thank you very much, Senator Feinstein.
    We are ready to begin, and Slade Gorton, the floor is 
yours.

STATEMENT OF HON. SLADE GORTON, 9/11 PUBLIC DISCOURSE PROJECT, 
                      SEATTLE, WASHINGTON

    Senator Gorton. Thank you, Mr. Chairman. Senator Feinstein 
has already given a part of my speech, which was particularly 
flattering, but I will begin at the beginning.
    If terrorists strike again on American soil, it will be 
local emergency responders--police, fire fighters, and 
emergency medical technicians--who will be on the front lines. 
Local emergency preparedness is now a matter of national 
security. In addition, of course, while the Federal Government 
through FEMA is not generally a first responder, its utterly 
inadequate response to the needs of both victims and first 
responders at the time of Katrina calls for dramatic changes in 
its preparation for and response to both natural and terrorist-
caused emergencies.
    On 9/11, shortcomings in emergency communications hindered 
first responders and led to an unnecessary loss of lives, 
especially bad among fire fighters in the Twin Towers and 
between agencies responding to the World Trade Center site. As 
the heroic fire fighters in both towers climbed higher, their 
radio transmissions were disrupted by the many floors between 
them and their commanders. Communications with their chiefs in 
the lobby became weaker and more sporadic. Because so many 
people were trying to speak at once, available channels were 
overwhelmed. Transmissions overlapped and often became 
indecipherable. Many fire fighters in the North Tower didn't 
hear the evacuation order issued after the South Tower 
collapsed. Some weren't even aware that it had come down.
    Meanwhile, communications among agencies were poor. In one 
well-known example, fire chiefs in the lobbies of the tower got 
no information from the police helicopters circling above. 
Because of poor inter-agency communications, many redundant 
searches were conducted. This wasted precious time and caused 
the deaths of many heroic first responders.
    Hurricane Katrina reminds us that this problem has not been 
solved. In Katrina, poor public safety communications again 
delayed the response. New Orleans and the three neighboring 
parishes were using different equipment and different 
frequencies. They couldn't talk to one another. Helicopter 
crews couldn't talk to rescuers in boats. National Guard 
commanders in Mississippi had to use human couriers to carry 
messages.
    Last July, the 9/11 Commission recommended that Congress 
turn over broadcast spectrum to first responders to improve 
communication between agencies and to allow interoperability 
among agencies. The House and Senate are finally moving on 
legislation to reclaim analog TV spectrum currently held by 
broadcasters and to designate some of it for use by emergency 
responders, but the date in the bill just released by the 
Commerce Committee is April 7, 2009, nearly 8 years after the 
9/11 attacks.
    By contrast, less than 4 years after Pearl Harbor, both 
Japan and Germany had been defeated. It is ridiculous that it 
should take eight years to implement such an obvious response 
to the 9/11 attacks. Experts say that this transition could be 
accomplished as early as 18 months from today and certainly 
within 2 years. There will surely be another terrorist attack 
or a major disaster in the next 4 years. We need a sense of 
urgency to get this done now, not 4 years from now.
    On 9/11 in New York and New Orleans, command structures for 
emergency response were not clearly defined. It was not clear 
beforehand who was in charge or what each agency's 
responsibilities were. This confusion cost lives.
    By contrast, in Arlington, Virginia at the Pentagon, the 
command structure did work and there was not loss of lives 
among first responders after the attack took place. I also have 
the impression that Mississippi's response to Katrina did not 
suffer from the same problems of command and control as did 
that of Louisiana. Command and control in response to Hurricane 
Rita seems to have worked better, as well. The Committee may 
well wish to examine the facts and circumstances of command and 
control in each of these cases so that we can learn what worked 
and what didn't.
    The 9/11 Commission recommended that local governments 
adopt the incident command system. This system defines who is 
in charge and what agencies' responsibilities are in a crisis. 
Every locality should have a clear emergency plan with every 
agency's specific role laid out beforehand in black and white. 
As we saw in Katrina, if local plans are not highly specific 
and are not regularly rehearsed, confusion is inevitable.
    DHS set a hard deadline of October 1, 2006, for localities 
to establish and exercise a command and control system to 
qualify for first responder grants. Don't let that deadline 
slip. Localities that do not have clear, well-rehearsed 
incident command plans by that date should not receive Federal 
Homeland Security grants.
    Now, Senator Feinstein has already spoken to risk-based 
funding. Since 2001, you have allocated more than $8 billion to 
help State and local governments prepare for terrorist attacks. 
Unfortunately, these funds have not been guided by any 
assessment of risk and vulnerability. The 9/11 Commission made 
a common sense recommendation that it be based on risks and 
vulnerabilities, not politics. These funds are national 
security funds, they are not general revenue sharing. They are 
too important to be spent without any guarantee that they are 
actually reducing our vulnerabilities.
    Both of you support this kind of reform, as do many other 
Senators. As Senator Feinstein said, the House proposal on the 
subject is an excellent one. It is now in conference with the 
Senate. The Chairman and Vice Chairman of the 9/11 Commission 
and the Public Discourse Project will soon submit a letter to 
that Conference Committee strongly recommending the House 
version, which is very similar to what Senators Cornyn and 
Feinstein proposed here in the Senate. We urge that that be 
adopted.
    The Intelligence Reform Act required DHS to produce a 
national strategy for transportation security by April 1, 2005. 
We bitterly criticized the agency for not having done so in our 
report in mid-September. We were told the next day, well, in 
fact, they had finished it on the first of July, but that it 
was classified, apparently, even the fact that it existed. As 
such, it is unavailable to the public, the transportation 
community, State and local governments, and first responders. 
What use is it if the people who have to adapt to it don't know 
anything about its existence or what it says?
    Next, DHS has not produced the National Risk and 
Vulnerabilities Assessment for critical infrastructures that 
was due on June 15, making it very, very difficult to 
distribute Homeland Security funds in a rational manner. 
Moreover, that kind of assessment needs to be an ongoing 
process. It is not a one-time job.
    Finally, as Hurricane Katrina reminded us, large-scale 
emergency responses are bound to occur again in the future, 
whether from terrorist attacks or natural disasters. The 
question, Mr. Chairman, is are we better prepared for the next 
major terrorist attack, for the next natural disaster? Are we 
prepared for an attack with a dirty bomb or one with chemical 
or biological weapons? Are our emergency communications good 
enough? Are our response plans updated and rehearsed? Are we 
directing Federal funds as they are needed to protect our real 
vulnerabilities?
    Well, at least with respect to those last questions, the 
answer is no. After 9/11, after Katrina, we are still not 
prepared. We will do anything we can to help you and your 
counterparts in this Committee and in both Houses to enact 
these common-sense recommendations this year for the safety of 
our first responders and the communities they are pledged to 
protect. The lessons of 9/11 and again of Katrina are too 
painful to be learned again a third time.
    [The prepared statement of Senator Gorton appears as a 
submission for the record.]
    Chairman Kyl. Thank you, Senator Gorton, for that excellent 
statement.
    Next, Mr. Wayne Thomas.

    STATEMENT OF WAYNE C. THOMAS, VICE PRESIDENT, HOMELAND 
 SECURITY, INNOVATIVE EMERGENCY MANAGEMENT, INC., BATON ROUGE, 
                           LOUISIANA

    Mr. Thomas. Chairman Kyl, Ranking Member Senator Feinstein, 
other members of the Committee, I appreciate the opportunity 
and the honor to be here today. It is very significant for our 
company to have this opportunity and we appreciate it.
    On the screen, you will see an image of a dirty bomb attack 
that we projected on the West side of the Capitol building 
here. I think this brings home to us what we are dealing with 
as a potential scenario. Should this event actually occur, part 
of this area may be uninhabitable for many, many years because 
it is a radiological device.
    Recently, we witnessed the devastation of Hurricane Katrina 
and what happened along the Gulf Coast. I think we want to look 
at a comparison between terrorist events and the natural 
disasters that we just experienced.
    The image that you are seeing now shows the extent of the 
impact of Hurricane Katrina and this model that you are seeing 
here is the storm surge model. We actually ran this model a 
year ago for an exercise that we did and we were aware at that 
time that this would be the extent of damage from a hurricane 
of this type. So we are projecting the geographical extent of 
the damage here into an image. We are going to compare this 
with a couple of other types of scenarios.
    The first one that you will see is an IED event. This 
happens to be in Salt Lake City at the University of Utah 
stadium. This is a vehicle-mounted IED, and you will see that 
there are multiple IED attacks that happen in this one scenario 
that we have utilized. The message here is that this type of an 
attack is somewhat localized to the area, that the damage and 
the casualties would be localized, but the damage and effect on 
certainly the population where this happens in the Nation would 
be significant.
    Second, you are going to see a chemical warfare attack in 
San Francisco at Golden Gate Park. This is a release of GB 
agent, Sarin, the same chemical agent that was used in Tokyo in 
1996. A very small quantity is used here. The effects on those 
in the park would obviously be catastrophic, and we will 
project at the end of the simulation the casualties that we are 
looking at.
    The last scenario that we have here is an anthrax attack on 
a Midwest city. I think once you see the simulation, you will 
see what city it is. This is a simulation that we did a couple 
of years ago and it is an airborne release of weaponized 
anthrax that impacts the entire city and beyond. In the bottom 
right corner, you can see the red and yellow images appearing. 
That is the distribution and spreading of the anthrax as it 
migrates through the communities. This would be absolutely 
catastrophic in this location or any urban environment were 
this to occur.
    So how do these events all compare? You can see that here 
is the estimated fatalities that we have from these 
simulations. You can see that Hurricane Katrina that we saw and 
continue to see in New Orleans is less than we would anticipate 
from the bioterrorism anthrax simulation.
    Returning back to the dirty bomb scenario, I think it is 
important that we also think about the Hurricane Wilma that 
recently crossed Florida and caused substantial damage there, 
went right up the East Coast very quickly and a few days ago 
was causing quite a bit of rain here. If that had moved a 
little bit to the West, it would have impacted D.C. The 
combination of a terrorist event along with a natural disaster 
could also be a very significant event.
    I want to mention a few points here that from our 
experience working with many of our clients across the Nation 
and over the last 20 years, what we have seen from our 
experience. There are, in terms of catastrophic planning, I 
think various things that have been done, and one of the things 
that we have done back in July of 2004 was to develop an 
exercise, a planning exercise approach that we called Hurricane 
Pam. This was a Category 3 hurricane that made landfall in 
Southeast Louisiana. The consequences of that were used by the 
local communities, the State, and the Federal agencies for 
planning and 14 plans were developed at that time.
    The consequences of a Hurricane Katrina-type event were 
well known in that area and by all of the response agencies. In 
fact, the model that we showed earlier demonstrated the extent 
of the storm surge that we knew well over a year ago would 
happen should this storm make landfall in this particular area.
    The key aspect that we see working with our clients is that 
planning is the cornerstone of really everything that we do. 
But what we don't see is that we don't define what we want as 
specific, acceptable results from developing these plans. What 
is it we want to achieve? What is it that the public demands of 
us?
    We write plans, we execute those plans, but we don't always 
define what we want, and that is a very important distinction 
that we need to address. Simply having a plan that works well 
may not achieve the results that you want if you don't 
determine what you want to achieve in advance, and that is a 
very significant change in planning approach that we would 
recommend.
    The second issue is the actual plans that we developed, do 
we really understand the consequences that these disasters are 
going to have on our communities and on our citizens? We need 
that comprehensive understanding of a terrorist attack, 
whatever type we want to consider, natural hazards, hurricanes, 
earthquakes. Let us understand what the consequences are, 
because that helps us plan effectively. Unless we utilize those 
detailed consequence assessments, again, we cannot plan 
effectively.
    The third point I would make is that we have to address the 
full integration of Federal, State, and local response 
capabilities. As Senator Gorton said, local response is first-
line national response now and that is so accurate. All 
politics is local. I think Tip O'Neill said that many years 
ago. But all disasters are local. It is those local first 
responders that are going to be there when it immediately 
happens and they are going to be there over the years for the 
clean-up and recovery from that disaster. They are critical to 
solving the solutions here. So bringing the right people 
together is very important from the front-line local 
governments, State governments, and Federal agencies.
    And the last thing I wanted to mention is that we have an 
exercise program that we utilize to test our plans. I think it 
is important that we make that program as rigorous as it can 
be. We conduct a lot of exercises that are essentially open 
book. We just test the plan and we check the marks here. But we 
have to have an exercise program that is rigorous, that ensures 
that we can effectively do what we say we think we can do.
    I will sum it up in one statement, if I can. We have to 
plan together, train together, exercise together, and that puts 
us where we can respond and recover together as a nation. Thank 
you, sir.
    [The prepared statement of Mr. Thomas appears as a 
submission for the record.]
    Chairman Kyl. Thank you, Mr. Thomas.
    Mr. Renteria?

STATEMENT OF HENRY R. RENTERIA, DIRECTOR, CALIFORNIA GOVERNOR'S 
        OFFICE OF EMERGENCY SERVICES, MATHER, CALIFORNIA

    Mr. Renteria. Thank you and good morning, Chairman Kyl, 
Ranking Member Feinstein, and Subcommittee members. Thank you 
for the opportunity you have given me to be here today to 
testify on this very important subject.
    Before I go into my remarks, I would like to, if we can, 
show a very brief video that we have brought along with us.
    [A videotape was played.]
    Mr. Renteria. Thank you. As you can see from the video, 
California, because of our history, and we do have a long 
history of natural disasters, we learned very many valuable 
lessons. We have taken these lessons and we have incorporated 
them into planning for the next one. In summary, we have had 
our Katrinas in California. We have had several disasters. We 
have learned from every single one of them and we have applied 
them to the next one.
    As you saw, the Incident Command System is something that 
came out of the Forest Service. This was something that was 
used to manage large numbers of resources fighting large forest 
fires. This Incident Command System has now been pretty much 
developed into the civilian system as our Standardized 
Emergency Management System. SEMS, as we like to refer to it, 
is our bible for responding to disasters. This is the backbone 
of the system that is in California. Because this is an 
organizational system that can be used to deal with large-scale 
events, it allows the opportunity for several agencies to 
respond together under a unified command and deal with the 
events of the disaster.
    As you saw from the video also, the Federal Government has 
now adopted the National Incident Management System, NIMS. It 
is a real tribute to California that they took our system and 
applied it, but I must also point out, the Federal Government 
did not use NIMS at the Katrina event and this was really a 
major issue that led to the things going wrong. If they had 
used NIMS as we have depicted here, I think we wouldn't have 
seen some of the issues that came up.
    I also want to use this opportunity also to talk a little 
bit about interoperability. We have heard that word before and 
that is a major concern that we have. But I also want to show 
you that interoperability is something that we have taken very 
seriously, but it is also exacerbated by the fact that we are 
such a large State. We have unique topography in California 
that gives us major challenges and we have a huge number of 
response agencies.
    But we have some success stories. I think this is something 
that I would like to point out. We have purchased what we call 
our black boxes. These are pieces of equipment that can be 
brought to a scene where first responders can literally plug 
into these boxes in order to solve some of the interoperability 
problems. We also have radio caches that we bring out to the 
scene to distribute to first responders who are showing up that 
may not have the radio frequencies that we have.
    We have identified some success stories on a regional 
level, specifically in San Diego, Orange County, Sacramento, 
and even the Bay area. They have used some of the resources we 
have gotten from Homeland Security to develop some regional 
capabilities that gives us a model to follow for the rest of 
the State.
    But we still need help. We need some guidance. The Federal 
Government needs to provide us some guidance on 
interoperability. What are those standards that you want us to 
follow? And we need the help with the frequencies, as was 
mentioned earlier. Frequencies is a major issue for us all over 
the country, and these frequencies and the spectrum that we 
need to have addressed so that we can have our interoperability 
taken care of.
    I also want to point out, someone asked, what is the proper 
role of the Federal Government in a disaster? My response is, 
the Federal Government needs to be a partner. They need to be a 
partner with the State and with local government before, 
during, and after a disaster. Before the disaster, we must all 
speak with a single voice in helping spread the message of 
preparedness, preparedness from the level of the government, 
preparedness at the private sector, and preparedness for the 
individual citizens.
    During a disaster, they need to also bring the resources in 
to help us respond and save lives, protect property. But also 
during a disaster, the Federal Government must also be part of 
a unified command. We have a system set up in California. We 
incorporate the Federal Government when they respond to our 
request, and so part of that unified command must be there for 
them to also participate in.
    And after a disaster, besides bringing disaster assistance, 
which we obviously need, the Federal Government also needs to 
help us promote mitigation. The mitigation programs are the key 
to preventing some of the loss of life and property that we 
have in some of our natural disasters. We need to spend some 
money ahead of time so that we don't spend so much money after 
the event.
    As we go forward and we identify the lessons learned, not 
only from Katrina but from past disasters, we will keep 
applying these lessons to our plans, we will keep exercising 
these plans, and we will keep providing more training to the 
necessary governments that need to be prepared to respond. But 
we must also remember the old saying that failure is only the 
opportunity to begin again intelligently. I think these are the 
lessons that we need to prepare for. We need to prepare for the 
next disaster, not the last one, and I think we are on that 
road. Thank you very much.
    [The prepared statement of Mr. Renteria appears as a 
submission for the record.]
    Chairman Kyl. Thank you, Mr. Renteria.
    Mr. Bettenhausen?

  STATEMENT OF MATTHEW R. BETTENHAUSEN, DIRECTOR, CALIFORNIA 
      OFFICE OF HOMELAND SECURITY, SACRAMENTO, CALIFORNIA

    Mr. Bettenhausen. I want to thank the Committee and each of 
the members for the opportunity to be here and also to praise 
your leadership on these important issues of homeland security. 
I know, Senator Kyl, we have many shared issues on border 
security in California that you have and we appreciate your 
leadership in providing the additional resources that we need 
to better secure America's borders.
    Senator Feinstein, you have been a great partner with 
Governor Schwarzenegger, and just as you operate here in 
Washington, D.C. in a bipartisan fashion, we know that you have 
been a great partner with the Governor, that we work on 
homeland security and emergency management issues in a 
nonpartisan, bipartisan way, and we appreciate your support.
    It has been a pleasure for me to join the Governor's team, 
and he has assembled a great team, including my partner here, 
Henry Renteria, but across the board, from food and agriculture 
to health services and we are working together and we 
appreciate your support and leadership here, and your work with 
Senator Cornyn, whom I have also had the pleasure of working 
with your daughter, Danley, when I was with the Department of 
Homeland Security.
    You have been great leaders in recognizing that our funding 
must be prioritized, that it must be based on risk, that we 
must look at threat, vulnerability, and consequence. We have 
limited Federal resources and we must prioritize those and I 
thank you both and this Committee for its leadership.
    I also would like to recognize Senator Durbin from my 
original home State of Illinois, where I also had the pleasure 
of being Deputy Governor and serving as its first Homeland 
Security Director and thank him for his leadership on homeland 
security issues, not only while I was there and leading the 
Illinois delegation, but working to continue making sure that 
Illinois, like California, is well prepared and continues to 
become better prepared as we look at these issues.
    I think it is very appropriate that we look at the issue of 
terrorism in terms of the lessons learned from Katrina, and 
that is the focus that you have brought here today, and it is 
very important that we look at it from that perspective, not 
only from domestic terrorism that we learned from Timothy 
McVeigh and the Oklahoma City bombings, but through 9/11 to the 
1993 World Trade Center bombings which helped save lives 
because there was better evacuation planning and there were 
things that were done when 9/11 happened 4 years ago.
    But when we look at Katrina, and every one of those lives 
was precious, just as it was with 9/11, but if you look at the 
consequences there, where we lost approximately 1,200 
individuals, each deeply important, major disruptions in their 
lives, but if you compare it to terrorism and if you compare it 
to 9/11, we had three times the number of casualties when we 
look at a potential terrorist attack.
    As Senator Kyl appropriately pointed out, these attacks are 
not going to come--and Senator Feinstein, you did, as well--are 
not going to come with 5 days of warning. They are conspiring 
against us. Their intentions are well known by the intelligence 
community. It is well known by this Committee. They are looking 
for mass casualties. They are looking for a more spectacular 
event than 9/11. That means that we must keep the focus on 
terrorism preparedness, where we could have a weapon of mass 
destruction, a chemical, biological, radiological, nuclear, 
that could cause significant deaths and casualties.
    One of the things that unfortunately or fortunately, 
depending on how you can kind of look at it, we have not been 
tested with major long-term care for mass casualties. In 9/11 
and New York City, we were looking that we might have long-term 
care and needs for burn victims. Unfortunately, it didn't 
happen, and fortunately, I think because of the lessons learned 
from the 1993 bombing, there were a lot less casualties because 
there were evacuation plans and things in place that also saved 
lives.
    But we have to go and look at what will we do in a major 
weapon of mass destruction event? What will be our medical 
surge capacity? What will FEMA be able to do in terms of 
providing support to our local, State, and counties in terms of 
that medical surge capacity that we know just does not exist in 
all of our communities when you are talking about an incident, 
and as Secretary Chertoff has recognized, that they are 
planning for housing and feeding--must account for 500,000 or 
more--or more--and it is not only housing and feeding, it is 
the medical surge capacity that would come with that. It comes 
with the ability to also bring communications, which is another 
lesson learned from Katrina, again from 9/11, and as Senator 
Gorton talked about, we haven't gotten it yet.
    In 1997, Congress promised our first responders that they 
would have new frequencies and that we would have the capacity 
to have spectrum so that we could pass video, data, and have 
dedicated radio frequencies for our first responders. They were 
to get that at the end of this year. That is not going to 
happen, and I know the House markup is going on, that they are 
looking at a deadline for those spectrums to become available 
in 2008 and the Senate is looking at April of 2009. We need to 
move quickly to do that because we have learned again and again 
it is about communications, cooperation, and coordination. It 
is communications, communications, communications. So we need 
to do that.
    I think one of the things that we look at as we move the 
media off those bands and that we as a Federal Government go to 
talk about auctioning those bands, as the government should--we 
have huge Federal deficits and we need the resources--we were 
meeting with Representative Lungren when we were out here. One 
of the things Congress should also consider is when we go and 
auction those things and we receive that money, that we 
dedicate that funding to our first responders so that they can 
use them to improve their interoperability and their 
communication capabilities, and it would be a good way to help 
finance it and make sure that we are committed to providing 
those resources.
    Besides communications, again, we need to know that FEMA is 
going to have their logistics systems put in place so that when 
we call on FEMA, that we are going to be able to get the 
materials that we have requested that they have assured us that 
they are there and that we are going to be able to use them.
    Besides housing and feeding, there is also the financing of 
the displaced. I think Secretary Chertoff has talked about 
this, about the need to improve it, and he is working on that, 
but it may be things that the Hill could look at in terms of 
improving Stafford Act so it is fairer to all States and all 
communities in terms of those impacted by disasters.
    I think it is important to recognize, as Secretary Chertoff 
has, that FEMA is not a first responder. It is the State and 
locals. What is FEMA? It is nothing more than our first 
responders who are out there who have staff and are trained to 
take the urban search and rescue teams, the swift water rescue 
teams, that become a national resource in an emergency. Eight 
of California's USAR teams were in the Gulf.
    We do not need to build Federal capabilities, as Governor 
Perry talked about, a Maytag repairman sort of sitting there 
waiting to be called. We need to better support our State and 
locals so they have those first responders there who can 
respond to anything 24/7, respond to incidents that don't 
require Federal assistance, but to be there for national 
emergencies as the national asset. So we can deploy USAR teams, 
swift water rescue, disaster medical assistance teams, and 
again, by USAR, I mean urban search and rescues.
    Again, like Mr. Renteria talked about, we believe in and we 
need the support of the Federal Government, but we do not need 
the Federal Government in charge. We need the Federal 
Government to come in and assist us under civilian authority 
and control.
    I would like to just talk briefly about IA, an information 
analysis and threat awareness. We need to continue to make 
improvements at all levels of government. I think the Federal 
Government and our intelligence community also needs to know 
that they can learn a lot from our local police officers who 
are out there. There are a lot more of them there. We know 
lessons learned in terms of Timothy McVeigh. It was local folks 
that got it. Eric Rudolph, it was local police who finally 
captured him.
    We met and had our identity theft conference when we were 
in California, Senator, and I thank you for taking a leadership 
on that. We know that they need financing and they do it 
through the criminal milieu and there are things that we work 
at a local level that we can help provide, but we also need to 
know the strategic threats that are out there and we need 
better information sharing.
    And then in terms of infrastructure protection, it was 
raised by Senator Gorton, as well, we need to have that plan. 
We need to have what the national infrastructure planning is 
going to be. We need to have better coordination with us in our 
private sector community in terms of which assets we need to 
harden and protect, and Senator, we have worked closely on many 
of those issues that we see in California, but we know that we 
can't harden all critical infrastructure, but we need what is 
the strategic system-wide plan so that we look at systems 
rather than individual targets and how do we have the 
redundancies, the resiliency, and the quick recovery capability 
so no matter where you hit us, and if you hit us in multiple 
places, we can quickly recover.
    I see that my time has expired. I feel like I am back in 
the Court of Appeals with the clock running. But I would be 
remiss if I didn't talk about the importance of the individual 
citizen and the individual citizen's role to be prepared. That 
was really driven home with Katrina, Rita, and Wilma. You need 
to have a family disaster plan. You need to help our first 
responders so that they can address those most in need, those 
who are injured, and so that they can focus their attention on 
restoring services. So to the extent that you can take care of 
yourself, that you can be on your own for 72 hours, you are 
helping everybody. You are helping America and you are helping 
yourself and citizen preparedness is a critical part of making 
America safer and better prepared.
    I thank you for the opportunity to speak with you today.
    [The prepared statement of Mr. Bettenhausen appears as a 
submission for the record.]
    Chairman Kyl. Thank you, Mr. Bettenhausen.
    Dr. O'Hanlon?

  STATEMENT OF MICHAEL O'HANLON, SENIOR FELLOW AND CO-HOLDER, 
 SYDNEY STEIN CHAIR, FOREIGN POLICY STUDIES PROGRAM, BROOKINGS 
                 INSTITUTION, WASHINGTON, D.C.

    Mr. O'Hanlon. Thank you, Senator. It is an honor to be here 
before you as well as Senator Feinstein. I also want to thank 
the Texas and Illinois delegation for giving us a great World 
Series so far, I know happier for some than others--
    [Laughter.]
    Mr. O'Hanlon. --but too late for all of us. If we can agree 
on one thing, the games go too late. I think some people on 
this panel actually watched. Hopefully, you can't tell from our 
testimony.
    Anyway, I want to say a few brief things very consistent 
with the general theme of what we have already heard from my 
colleagues.
    I want to first say, in terms of answering, Senator 
Feinstein, your question about how much progress have we made 
and where do we stand, while there are a lot of things we 
haven't done and a lot of things we have, I want to put a 
little bit of a conceptual framework in place and suggest that 
we have put our greatest successful effort so far in the area 
of prevention, and that is appropriate. I think we have done 
better with the PATRIOT Act and with, even before the PATRIOT 
Act or concurrently with it, breaking down some of the 
bureaucratic barriers. The 9/11 Commission has offered some 
ideas on how to do more of this. But even before they issued 
their report, we had made some of these changes. I give the 
Bush administration and the Congress a lot of credit for that.
    I think the border integration at DHS, the border security 
integration has gone better than some of the other efforts 
there, although it requires continued pressure from those of 
you who have a special interest in the border problem to keep 
up the resources, because I don't think they are adequate yet. 
But I do think that direction has been appropriate and the 
integration there has made good sense.
    On a few other areas, maybe New York City's efforts to 
create dedicated police counterterror units and so forth, there 
have been some remarkable efforts at prevention, which I think 
have been helpful and it is part of why we haven't seen a lot 
of terrorists on American soil. We did learn from President 
Bush earlier this month in his October 6 speech that there had 
been some attacks in the works we hadn't known about, or at 
least those of us on the outside of government hadn't heard 
about prior to that point, but overall, I have been relieved 
that there haven't been more terrorists found on American soil 
since 9/11 and more attacks that actually got to the advanced 
planning stage or the implementation stage, and that is a 
tribute to our prevention and that should remain the top 
priority, I believe.
    However, it cannot be the only priority because we are not 
good enough and our borders are inherently too open to make 
sure prevention always works. So we have to think a lot about 
protection of key assets and consequence management, and that 
is a lot of what my colleagues have been talking about, fellow 
panelists up here. I want to make a couple of observations 
before I get to my own graphics. Maybe I will conclude with 
those, but let me lay out a couple of broad thoughts first.
    I would just offer my main recommendations on what we 
should do and what we shouldn't do at this moment in homeland 
security and next efforts, because I think we always have to be 
asking, what are our resources? What threats are most plausible 
that we should be preparing against them? And which ones are 
simply not plausible or too hard to deal with? Frankly, that 
latter category is a distressing one to have to recognize, but 
there are certain threats that unless we are prepared to do a 
radical change in our way of life or unless we see the threat 
get a lot more plausible, I think the best course of action is 
a fairly minimal response. In other areas, I think we need to 
do more. Let me just offer a couple of short lists of each, dos 
and don'ts.
    On the don'ts, I don't believe, for example, that we should 
create a lot of excess hospital capacity for a quarantine in 
the event of a massive contagious biological attack. Some 
people have laid out very worrisome scenarios about contagious 
biological attack and I don't want to say these are 
implausible. In fact, we should spend a lot of time and effort 
on vaccines, on prevention, on monitoring people as they come 
into the country for health, trying to deal with health 
problems over seas. The H5N1 virus is an example of something 
we have to monitor and deal with through a health prevention 
approach.
    But I don't think that we should spend what would be tens 
of billions of dollars creating excess hospital bed capacity 
for a scenario that is relatively unlikely to happen, and if we 
do have that scenario, it is going to be more important to 
respond in other ways than by having hospital beds. I throw out 
this scenario because some people have talked about the 
desirability of having the ability to have many, many thousands 
of people quarantined in any given city within hospitals in 
excess of what we already have--not a smart use of money, I 
don't believe.
    There was a council on Foreign Relations study a couple of 
years ago that called for spending $20 billion a year more on 
first responders. I disagree. I don't think that would be a 
smart use of scarce homeland security money. We obviously have 
a lot of first responder needs that have not yet been met and I 
think there is room for an ample serious discussion on that 
topic alone, and we have heard some mention of initiatives that 
would be appropriate. I have my own list. But I think we have 
to keep that kind of list more or less within the $5 to $10 
billion a year range that we have been spending so far on first 
responders because I don't think that some of the ideas that 
are out there make sense. Putting chemical protective suits for 
all three million first responders in the country at the top 
level of capacity, I don't think it is the appropriate thing to 
do.
    Making sure every police and fire radio in the country can 
talk to every other one, I think that is excessive. I think 
what you need is mobile communications systems that can be 
interoperable, deployable ways for the fire and police radios 
to talk to each other. But to replace all the radios would be 
an excess use of resources.
    I am sorry to go through this list of don'ts, but I want to 
establish some credibility, I hope, before I go to a list of 
dos, because we can really have a problem with homeland 
security of a kitchen sink mentality where those of us, most 
people in this room, I think, who are homeland security hawks 
sometimes sound to the rest of the country like we just want to 
do every single thing we can possibly imagine, not that anybody 
has been guilty of that here, but sometimes the impression 
people get is that homeland security hawks just want to spend 
everything under the sun, throw in the kitchen sink, at this 
problem. We have to avoid that temptation.
    Another potential way you could spend umpteen sums of money 
would be to essentially harden our public spaces the way Israel 
has had to do. I do not believe we are now at a point in the 
United States where every single mall, restaurant, McDonald's, 
movie theater should have metal detectors. We may wind up in 
that world, and the Israelis have wound up in that world. I 
don't think we should be in that world right now because, 
again, I think the cost would be excessive. The threat is not 
yet credible enough to me to advocate that. Now, I could be 
proven wrong tomorrow, but I don't--and we obviously need 
certain kinds of buildings to be protected in these sorts of 
ways and we always have to have the debate about which ones. 
But I think to establish an Israeli-level security system for 
every public space would be excessive.
    Finally, I don't think we need to inspect every single 
container coming into the United States. That would be roughly 
a 20fold increase in capacity compared to what we do today. It 
would require major redesign of every major port in the 
country. It would require additional expense on a magnitude of 
maybe ten times what we spend now. I would not recommend that.
    Having said those things I would not do, let me say four 
things I would do very quickly, show my pictures, and be done.
    One, chemical plants. Chemical plants, at least the top 
couple thousand most dangerous chemical plants in the country 
are just not well enough protected today, and I will add one 
little point of commentary on Senator Gorton's chart where he 
called on the private sector to take primary responsibility 
here. I agree with him partially. The private sector must do a 
lot of this, but I think they need a nudge from Washington, 
because if you are an individual owner of a chemical plant, of 
course, you are not going to volunteer to be the first one to 
protect your plant better than standards require. All the 
economic incentives are against doing so, and why would you 
want to draw attention to yourself or admit that you might have 
a vulnerability?
    So you may do a few things quietly, and some chemical plant 
owners have, but most have not and I think it would be 
unrealistic for Washington to expect them to. On the other 
hand, we can't mandate with the heavy hand of government that 
every chemical plant in the country hire 1,000 more security 
guards tomorrow. That would be one of those don'ts that we 
should not do. So we need to figure out some compromise, and I 
think Congress needs to look at this in more detail than it has 
so far.
    Border capacity. I think the efforts of this Committee and 
others have been instrumental and exemplary, but still 
insufficient, and you know more about that than I, so I won't 
go on.
    Local police capacity, and I am fascinated to hear what my 
colleagues from California have to say on this. I have some 
friends on the L.A. City Council and elsewhere who have been 
distressed that in Los Angeles, and I have heard similar 
stories about Chicago and St. Louis and Houston, other places, 
there is really not much dedicated capacity at the level of 
local police to do what New York City is doing, which is to try 
to--and New York City does remarkable things. They will send a 
police officer to a convention of mosquito spraying equipment 
to figure out if anybody is there who doesn't seem to belong 
and might want that equipment to spray anthrax.
    I don't think most other police departments in the country 
have thought about how to do that sort of thing, or which 
buildings might be most vulnerable to truck bombs, and 
therefore, perhaps, they should not have parking garages 
beneath them, or if they do, there should be much more rigorous 
inspection. Now, we all know there are a couple of big 
buildings in major cities that have taken these sorts of 
precautions, but I think New York City is the only city that 
does this systematically at the level of capacity that is 
appropriate. So helping cities create more capacity for 
preventive efforts at the level of police, I think is an 
appropriate third priority after chemical plants and border 
capacity.
    Last thing, and Katrina brings this to mind, we need to 
avoid a big polarized debate about DOD's future role in 
disaster response. Some people want to say the States should 
always be the first responders. As Mr. Renteria said, all 
disasters are local--I guess it was Mr. Thomas--all disasters 
are local, all disaster response has to be local. At some 
level, of course, that is certainly true, but there are 
emergencies for which DOD is the only plausible way to marshal 
the kind of capacity we need and DOD is not yet good enough at 
reacting urgently.
    Historically, DOD has acted over a period of days. They are 
not yet good enough at acting within hours. They should be able 
to be. They don't need a lot of new units. They don't need a 
lot of new capacity. They may or may not even need a new 
exemption to posse comitatus, although I would advocate one 
myself, but what they do need is better planning to figure out 
how to deploy a lot of capacity quickly.
    OK, so those are my dos and don'ts. My apologies for going 
on a little long. I want to very quickly go through a couple of 
graphics that are not quite at the level of professionalism of 
my colleague, so I will be quick, but thankfully, Senator, your 
staff helped me make them better than they would have been 
otherwise.
    This is what an anthrax attack could do with an airborne 
dispenser, an airplane, cruise missile, crop duster, what have 
you, in Washington. The shaded area is an area of high 
lethality and this would not require any more anthrax than you 
could have on one small airplane. So you are talking about 
potential for obviously many, many thousands, actually tens of 
thousands of deaths from this sort of an attack.
    This is, of course, the worst case scenario, a hydrogen 
bomb. It is not a particularly likely terrorist threat. On the 
other hand, Russia still does have a lot of loose nukes that 
are man transportable, or certainly car transportable, and I 
don't think we have yet reached the point where we can feel 
good about the security of Russian nuclear materials. Graham 
Allison at Harvard was right, I think, to say we should have a 
Fort Knox standard for all plutonium and highly enriched 
uranium in the world. We should guard that as well as we guard 
gold, all of it, and we haven't yet gotten there, which means 
this threat is still plausible, hopefully very unlikely, but it 
is plausible even though terrorists cannot plausibly themselves 
enrich uranium or make plutonium.
    This is another version of a dirty bomb and this is perhaps 
a somewhat less likely one, but it would be far worse than the 
graphs that Mr. Thomas showed earlier because what we are 
talking about here is cobalt from, for example, a food 
irradiation plant. Just one rod of this cobalt could actually 
create enough--if dispersed explosively could create enough 
contamination to look sort of like Chernobyl in terms of its 
effects and leave much of Manhattan uninhabitable for decades. 
Actually, I was surprised to learn this when I worked through a 
little bit of the science myself, but this is the sort of thing 
that we have somewhat unguarded, or at least not well enough 
guarded in our country today. So when you find a specific 
threat that could have this kind of implication, I think you do 
need to take preventive measures.
    And this, of course, I won't expect you to read, but this 
is just a summary of what we have learned, and some of this was 
done at DOD in their preparation for thinking through terrorist 
scenarios, but you have got a short list of 15 with the typical 
casualty numbers in the thousands, typical property damage 
numbers in the tens to hundreds of billions, and most of these 
are things we haven't yet done enough to prepare against, so I 
will just quickly summarize that busy table with that comment 
and thank you for your patience.
    [The prepared statement of Mr. O'Hanlon appears as a 
submission for the record.]
    Chairman Kyl. On that cheery news, we will conclude our 
panel discussion.
    [Laughter.]
    Chairman Kyl. Obviously, you probably have to have a little 
humor to approach these extraordinarily serious subjects or it 
can literally keep you awake at night, but our job is to try to 
be as candid with the American people as possible, to bring 
these problems to their attention, and to do everything we can, 
along with our colleagues and those working with us at 
different levels of government, to be as prepared as we can for 
what Senator Gorton articulated was the inevitable terrorist 
attack of the future.
    Senator Cornyn is going to have to leave, I think, shortly, 
and so I will call upon him now either for an opening statement 
or if he has a question or so with the concurrence of my 
colleagues here.

STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM THE STATE OF 
                             TEXAS

    Senator Cornyn. Thank you, Mr. Chairman. I just have a 
couple of things I want to highlight.
    First, I would like to ask unanimous consent that my longer 
statement be made part of the record.
    [The prepared statement of Senator Cornyn appears as a 
submission for the record.]
    Senator Cornyn. I was glad to hear, and I knew Senator 
Feinstein, since she has been such a champion of this cause, 
would speak about risk-based funding, and I am glad to hear 
Senator Gorton reinforce that. That is simply a common sense, 
necessary fight that we have to keep pursuing. Unfortunately, 
there seems to be a tendency in Congress to want to split up 
money on a revenue sharing basis rather than on a risk basis, 
but simply put, the risk is too high for us to give up that 
fight, so we are going to keep pushing on that.
    I would say, coming from a State that was affected, of 
course, both by evacuees from Katrina and then hit in Rita, how 
badly we are still--what kind of bad shape we are in terms of 
interoperability of communications. I can't tell you how many 
mayors I talked to who said basically they were operating on 
the basis of their cell phone. One said, ``Well, I will give 
you my satellite telephone number if you need to call me.'' But 
in other places, even in a big city like Houston, they did not 
seem to have distribution on the necessary basis of 
interoperable communications. I just wonder, and I think we 
need to do more than wonder, we need to find out where all the 
money that Congress has appropriated for this purpose has been 
spent, because it looks like it has not been spent as well as 
it should.
    The third issue I would highlight is continuity of 
government. This has been something that I have been concerned 
about. If one of those airplanes hadn't been brought down in 
Pennsylvania and hit the Capitol, it could have decapitated the 
Federal Government's ability to respond by killing or disabling 
a sufficient number of Senators and Congressmen that we would 
not be able to respond.
    While the House has attempted to deal with its ability to 
constitute itself by providing for emergency elections in a 49-
day period, all you have to do is look at the period of time 
after 9/11 to see how a much more immediate response is 
required than 49 days. Can you imagine running for election 
after a huge national emergency and just the difficulties of 
that? they have also attempted to deal with their quorum 
requirements by saying five members of the House can constitute 
a quorum and literally pass legislation, elect a Speaker and 
others, which I think has some constitutional problems, to say 
the least. So I hope we will continue working on that.
    Finally, let me just talk about evacuation and cyber 
security. In the evacuations leading up to Rita, we saw that an 
order of local officials to evacuate 1.2 million people, 
because of the so-called Katrina effect, coming on the heels of 
a much more devastating hurricane, resulted in the evacuation 
of 2.7 million people, with our highways looking like parking 
lots, which caused frustration, but fortunately, no lives were 
lost and it was really nothing more than an inconvenience. But 
I think, obviously, we need to look at our evacuation plans, 
and it is not within one State, but I think, literally, a 
regional evacuation. So we need to look at that. Of course, it 
struck me that if we were indeed talking about a terrorist 
attack as opposed to a natural disaster, we would likely have 
no warning and thus no opportunity to evacuate.
    Finally, Mr. Chairman, let me just mention cyber security 
is a cause that I have been interested in and concerned about 
for a long time. Of course, our ability to function in this 
economy with the first responders to get information is 
dependent on computers and our ability to basically include 
what is largely held in private hands, whether it is through 
financial institutions, local governments, or otherwise. We 
simply need to do a better job of protecting our cyber systems 
against computer attacks which could literally bring them down, 
disabling our first responders, affecting a body blow to our 
economy by bringing down our financial institutions or any one 
of a number of other scenarios you can think of that would be 
damaging, if not to life and limb, then certainly to our 
economy. And we need to do a better job through statutes like 
FISMA and others to enhance cyber security efforts, and I know 
the Department of Homeland Security is working on that, but I 
certainly don't think we are where we need to be.
    Thank you for the opportunity to highlight a few of these 
issues.
    Chairman Kyl. Thank you, Senator Cornyn.
    Let me begin with some questions, and I think just to have 
a good conversation, I will try to kind of stick to the 5-
minute round concept here. We will just go back and forth. But 
if it takes longer for an answer or we have to go longer, as I 
said, we will not be strict about that.
    First let me say that I think this is a very good panel to 
start a discussion, and I would hope that we will have the time 
to convene--maybe even ask some of you to come back in the 
future, but to continue the discussion because it is clear that 
this is not just a one-time proposition, that we can perhaps 
today only scratch the surface to identify some approaches and 
some of the problems and identify areas that we want to engage 
in in the future.
    For example, the notion of cyber security that Senator 
Cornyn just mentioned, we have been involved in that literally 
for about 9 or 10 years. I remember when we first got involved 
in it, and that is an area--and one other--that gets into a lot 
of classified material that I really want to begin my 
questioning with.
    One of you criticized--I believe it was Senator Gorton--
that transportation plan that has been classified. This raises 
an interesting question of the dynamic between that which you 
don't want terrorists to know, but that which all of the people 
involved in--all of the public officials need to know and to 
some extent the public needs to know, the difference between a 
Katrina, for example, needing to know what the routes out of 
New Orleans are, and how we might respond to a terrorist 
attack. And terrorists, we know, from Iraq have gotten very 
good at planning the secondary attack. In other words, they 
draw you all to a place and then they create the real problem 
or they know what your exit or egress routes are, and that is 
where they plant the IEDs and so on.
    So, anybody, starting with you, Senator Gorton, want to 
make at least some preliminary comments about the dynamic 
between that which necessarily does need to remain classified 
in the terrorist context, because that is the focus of hearing 
today, versus getting information out in the public?
    Senator Gorton. Well, obviously, much of the work of our 
intelligence agencies about potential threats, about 
individuals, is quite appropriately classified. But one of the 
other panelists here mentioned the lack of desirability of 
examining, you know, every single container that comes into the 
United States by sea. You know, personally I agree with that 
statement.
    Nevertheless, an overall transportation plan by the 
Department of Transportation is going to have to deal with that 
issue. When should they be examined? Under what circumstances 
should they be examined?
    The people who are going to do the work in the ports here 
and elsewhere are going to have to know, you know, what those 
rules are. They are not, by and large, going to be people who 
have security clearances. And the difficulty here in the United 
States, literally almost forever, is the ease with which 
information is classified, the temptation once it is classified 
not to share it, often even with other agencies and the like, 
and the extreme difficultly of getting it declassified. This is 
just a particular example.
    Are there elements in an overall transportation plan that 
we should not broadcast to the world? I am sure there are. But 
the existence of the plan and what people who are in the 
private sector need to know about the plan in order to carry 
out its recommendations? Of course, they should not be 
classified.
    Chairman Kyl. So one of the first things our Committee 
should do is to try to focus on some general principles with 
respect to the classification material so that that which needs 
to be classified is not overly restricted in sharing of it with 
the people that have to react to it and use it if there is a 
terrorist attack.
    Senator Gorton. Yes.
    Chairman Kyl. We will try to work on that.
    Now, let me just quickly turn--I found this interesting, 
that most of the visual illustrations did not appear to me to 
postulate worst-case scenarios by any means. In fact, all of 
you used wind coming from the right direction rather than the 
wrong direction, as I--well, no, excuse me. Actually, there 
were two. Dr. O'Hanlon, in yours the wind was going to from the 
southeast to the northwest to carry the radiation all the way 
up through Manhattan. But, Wayne Thomas, your explosion on the 
Mall blew it out toward the Lincoln Memorial rather than toward 
all of the Government buildings within the Federal enclave.
    I am not sure what my question here is, but I guess is it 
that clearly a clever terrorist, knowing that to disperse 
anthrax or the radiation from a radiological weapon or 
chemicals understands, appreciates the importance of wind 
direction, will take those calculations in mind. And we know 
that they are very clever and calculating people, so that we 
are likely to have the worst-case scenario where wind direction 
is important for the effectiveness of a terrorist attack.
    Would that be a fairly logical assumption, Mr. Thomas?
    Mr. Thomas. Yes, sir, it is a very logical assumption.
    Chairman Kyl. So we could easily have turned the wind 
direction around from west to east in your scenario, exploded 
the radiological device at the foot of the west side of the 
Capitol, and had a fairly major disaster for the Congressional 
office buildings, the Supreme Court, the Library of Congress, 
and the Capitol itself.
    Mr. Thomas. We certainly could have done that in the 
scenario. I think we were considering when we did that one that 
there would be an event happening on the Mall on the weekend 
where you would have a large tourist population and members of 
the public who would be impacted also. And it also went in the 
direction of the White House.
    Chairman Kyl. Well, there you go. No good can come of this, 
is the bottom line of that, and I thank you for pointing that 
out. Just don't tell the terrorists.
    Boy, you have got to have a sense of humor in this, I 
think, or it gets very depressing very, very quickly. It is 
such a serious proposition.
    Let me try to continue this conversation by calling on 
Senator Feinstein next, and then I will move into another 
series of questions.
    Senator Feinstein. Thanks very much, Mr. Chairman, and 
thank you very much for your testimony.
    I think one of the great lessons of Katrina was that every 
mayor all across the Nation is going to be saying, ``Oh, my 
God, I don't have an evacuation plan. And if I have an 
evacuation plan, clearly it is not going to be adequate.''
    I was a mayor for 9 years. I put a lot of effort into 
emergency planning, and what I found is that you have to have 
it all written and all rehearsed so that when something 
happens, the response is automatic and fast. You cannot wait a 
day or 2 days to make a decision.
    So you have to know, if you need to get off-duty emergency 
forces back into your city, how you do it; if you have to use 
buses to evacuate people, how you do it. And I think what 
Katrina demonstrated is that the poor in a city need help and 
that there has to be a special plan given high priority, 
whereas people who don't have the resources are able to know 
where to go to be evacuated quickly. And I suspect nobody has 
that in their plan.
    You know, I had to grapple with if there were a major 
earthquake, what streets would you bring in earth-moving 
equipment. Where would you get the earth-moving equipment? What 
companies would you go to? What yards would they be stored in? 
Really technical things, where emergency beds, medical supplies 
could be billeted for long-term use. I think we are led--how 
could we used closed military bases now as points for 
evacuation people to go to.
    So I think there are a lot of things that Katrina brought 
up, but what I wanted to ask you is, Mr. Renteria, you 
mentioned that California will soon have its State 
interoperability plan. When will that be?
    Mr. Renteria. We are very pleased to report that by January 
2006 we will have a strategic plan for interoperability. As I 
mentioned earlier, it is a complex issue for California because 
of our topography and just the number of agencies, but because 
we do have some regional success stories, again, like San 
Diego, Orange County, we are hoping to tackle it from a 
regional standpoint and move it out.
    But the committees that--
    Senator Feinstein. Will it have standards?
    Mr. Renteria. That is what we are hoping to have, some 
standards. But, again, we need some guidance also from the 
Federal Government on those--
    Senator Feinstein. Now, where interoperability has been 
successfully developed--and by this I mean the ability of EMS 
personnel, sheriff's personnel, police personnel, maybe 10, 25 
different departments, and maybe three or four counties, to 
talk to each other in the event of an emergency. Where it has 
been done, how has it been done successfully?
    Mr. Renteria. That is, again, the San Diego model that we--
    Senator Feinstein. Could you tell us how it has been done 
successfully?
    Mr. Renteria. They brought in all the players together, 
identified the radio systems, identified the different vendors 
that have been used, which is another issue that has to be 
addressed, different proprietary issues relative to the vendors 
and the private sector, because interoperability is beyond just 
radios. It is the ability to talk to each other, the standards, 
the common language, very similar to what SEMS is all about.
    Senator Feinstein. Are they all on a single megahertz?
    Mr. Renteria. I don't think they are on a single megahertz. 
What they have done is identified the different systems that 
they have, and I don't think there are enough channels to put 
everybody on the same radio system, which, again, goes back to 
some of the issues you mentioned earlier.
    But they have identified how they can work at that regional 
level to communicate with each other. I really want to explore 
more and communicate more with you on how they have actually 
done that so that we can--
    Senator Feinstein. Well, let me ask you, are there any 
standards for this? Because one thing that became rather clear 
to me is that when all the systems went down in Louisiana, 
particularly in New Orleans, they had no way of communicating 
police officer to police officer. No way. No satellite 
connection, no independent system.
    So it seems to me that there are some standards that need 
to be put out there that every jurisdiction knows what they 
must do to have an emergency interoperable radio system up and 
running.
    Mr. Renteria. Absolutely. And I am glad you pointed that 
out because one of the advantages we do have in California is 
that we do have some of those systems in place, like our 
Operational Area Satellite Information System. We refer to it 
as ``OASIS.'' This is a satellite system that is in use and can 
be utilized by local governments also, that the State provides 
the communications devices for. So we do have some of those 
things in place. Our challenge is to make sure that we can 
expand it statewide, and that is what is going to be the 
biggest challenge.
    Senator Feinstein. [Presiding.] We have a vote that I 
believe there are 10 minutes left in the vote, and they are now 
cutting off the vote. One time I missed a vote because I got 
there 60 seconds after it had been cutoff, so I do not want to 
have that happen again. So what I am going to do is recess. I 
think Senator Kyl already went to vote, but I have to as well. 
So I will recess the Committee, and we will be back very 
shortly. Thank you.
    [Recess 11:51 a.m. to 12:08 p.m.]
    Chairman Kyl. [Presiding.] Let's reconvene the hearing. My 
apologies. We had a vote called, and I thought maybe Senator 
Feinstein and I could play tag team, but I understand that the 
votes are being cutoff right at the designated time, which is 
odd for the Senate. And, therefore, Senator Feinstein did not 
want to miss that vote, and I do not blame her.
    Again, with only 20 minutes or so to go here, let me just 
again thank everybody for kind of writing the preamble to what 
I want to move forward with. And there are so many different 
questions, so in my remaining time, I am just going to try to 
set the stage for some future meetings.
    In that regard, several of you made points that tied 
together, and let me kind of summarize it, and then try to get 
the response from each of you.
    First of all, Mr. Bettenhausen raised what I noted as a 
question specifically to ask you, but I would like all of you 
to think about it, and that is, the differences, if any, in 
planning for a natural disaster versus a terrorist attack. You 
mentioned the difference, for example, in burn casualties that 
might be expected in a terrorist attack versus most natural 
disasters.
    Dr. O'Hanlon really did us a service, I think, by forcing 
us to concentrate on things not to do, not because they are not 
good things, but because you have got scarce resources, and 
inevitably we don't have time or resources to do everything we 
want to do. And I would add a third thing, and I think some of 
you alluded to this, too. We are such a big and open country 
that even if we wanted to do some things, it would be 
impossible, for example, harden every shopping center or the 
like, and, therefore, to try to basically provide some triage 
in the planning. And one of you said one of the first questions 
is--I think this was Mr. Thomas. You said the first question 
you have to ask is: What do you want to achieve in developing 
this plan?
    And it seems to me there are at least three things. One, 
prevention. And I agree, Dr. O'Hanlon, that prevention needs to 
be our first defense. Second, protection, which is to some 
extent prevention, but it assumes that maybe something has 
happened or is happening. And, third, responding and all that 
that means. And we need plans with respect to all three, and it 
is not just the Federal Government's job. For example, on 
prevention, I think you talked about the chemical plants, for 
example, and all of you in one way or another have talked about 
the need for citizens to think about things that they could do 
in their own lives and how they would respond as well.
    So you have got: What do we want to achieve? Between 
prevention and protection and response, how do we calibrate 
those? What kind of resources do we have in order to prioritize 
specifically what we do? And in the context of both natural 
disasters and terrorist attacks.
    If I could kind of frame the question that way, it is 
impossible for all of you to adequately respond to that 
question right now. But let me ask all of you to give it a 
shot, and then add anything you would like to add for our 
record, and then we may call you all back again, or if that is 
not convenient, in some way get your advice in the future.
    With that sort of four-part context, would all of you just 
like to tell me what you think we need to know in getting ready 
for more of these hearings based upon what I have said? Senator 
Gorton?
    Senator Gorton. Well, Mr. Chairman, I think the principal 
distinction between a terrorist attack and a natural disaster 
is that, by definition, a successful terrorist attack has not 
been predicted. We are trying to predict them, but when we can 
predict them, we can probably prevent them.
    But the first responders, the emergency responders are 
going to be responding to a specific incident that has not been 
predicted. Training for the disaster is vitally important. Most 
natural disasters are going to have been predicted. I think as 
Senator Feinstein said, we had 5 days' notice of Katrina in 
many respects.
    Now, in our part of the country, we still don't predict 
earthquakes very well, and an earthquake is likely to be more 
like the terrorist attack than the hurricane is. But I think 
that is, you know, the primary distinction. But the training 
for both, it seems to me, is vitally important, the kind of 
things we talked about: a proper command structure, the ability 
to communicate when most communication lines are down, all 
that.
    If I may indulge with two former colleagues, I would like 
to put one other thought in your mind, and that has to do with 
inevitable tendencies of any kind of governmental agency to 
have rules and regulations that are perfectly appropriate when 
you have got plenty of time, but that interfere when you don't.
    If you and I, Mr. Chairman, were to change States, neither 
of us could practice law immediately upon going to the other 
State. We would have to go through some kind of procedure, 
which is quite reasonable. But I am a member of an organization 
that meets on various civic events every Monday, and two and a 
half weeks ago our speaker was the head of a marvelous 
volunteer organization of physicians and health care 
professionals in Oregon and Washington that sends volunteers 
all over the world to respond to health care emergencies. They 
sent people to the Indian Ocean at the time of the tsunami.
    The day after Katrina, they sent a crew to Baton Rouge, 
where they were promptly told they were not licensed to 
practice medicine in the State of Louisiana. And it took 
somewhere between 24 and 72 hours before they could use those 
skills in that place. I would tell you this. This was reported 
to us by the head of the agency. I can certify it.
    The other one I cannot certify, but I think you might want 
to check on it. I have been told that a large number of highly 
professional emergency responders, firefighting officials and 
the like, immediately went from the Northeast down to try to 
help. They were stopped in Atlanta and told they had to undergo 
at least 24 hours of sexual harassment training before they 
could be sent on to do the things that they do, you know, by 
FEMA.
    Sure, people ought to be licensed to practice medicine. 
Sure, people ought to have appropriate training and the like. 
But one of the great inhibitors, it seems to me, is just that 
kind of mentality that rules that are perfectly OK in non-
emergency situations are highly damaging and restrictive in 
emergency situations. And we and you at the Federal Government, 
we have got to see some way or another that emergency 
responders can respond instantaneously and promptly to the 
emergency and are not restricted by inhibitory rules of this 
nature.
    Chairman Kyl. Thank you. Very enlightening.
    Mr. Thomas?
    Mr. Thomas. Mr. Chairman, I think your initial question was 
the difference between terrorist events and natural hazards. To 
me there is a very simple distinction between the two, and it 
involves prevention. We can prevent terrorist attacks. We 
cannot prevent natural hazards. They will happen. We could 
watch Hurricane Katrina march across the Gulf. We knew it was 
coming. We could not prevent the hurricane, but we could do 
what we needed to do to protect our citizens and get them out 
of the way. We knew it was affect our infrastructure. But that 
was all something that we could anticipate.
    With a terrorist attack, we don't know where or when it 
will happen or what it will be. But an aggressive prevention 
program is a major distinction between the two.
    I think the other question that you posed was: What do we 
want to achieve? I think I had mentioned that in my earlier 
testimony. I think that raises the difficult questions. You 
know, what is the outcome that we want in implementing these 
plans, protecting the public? Is it 100 percent? Is it 95 
percent?
    We talk about evacuating large cities. We know that certain 
parts of the population will refuse to go. Is that acceptable 
to us?
    These are questions that we have not really addressed. 
Senator Feinstein mentioned the poor. How do we deal with them 
in terms of ensuring their safety should a disaster happen? I 
think these have been largely grouped into other issues and not 
singled out for discussion and have not been addressed.
    So there is a tremendous number of issues that we need to 
get into here. You are right that we need a more substantial 
dialog on this.
    I think when we talk about results, it is not do we have a 
prevention plan, do we have a response plan, and so forth. 
Those are kind of the easy things to say. What does that 
prevention plan do? If we implement it, how is it successful? 
Is preventing all terrorist attacks the only measure that we 
can have 100 percent success? Is evacuating 100 percent of the 
population the only measure?
    Those are the things that we have to define, and I think as 
we look at those questions, that is where we have to use 
technology and other capabilities to come up with, first of 
all, the questions we want to address and then what are the 
acceptable solutions that we as, I think, collectively citizens 
want to have as our measures.
    Thank you.
    Chairman Kyl. Thank you. Would each of you also address as 
we go on--I have been seeing something here, and that is, all 
of you believe that we need better plans, even if plans do 
exist.
    Mr. Renteria?
    Mr. Renteria. Yes. Without repeating some of the things 
mentioned earlier, I think some of the things that are the same 
have to do with the consequences of an event and the recovery 
of an event. Consequences, you are going to have people killed, 
you are going to have people hurt, you are going to have the 
property damaged or destroyed. So natural disasters, 
terrorists, human cause, whatever, you are going to have those 
same consequences.
    The responses to the consequences are basically the same, 
too. We train to deal with these types of events every day. We 
must respond to them adequately.
    The differences: When you have a terrorist event--and Matt 
can probably give you more information on this--you have a 
crime scene. That involves not just local law enforcement 
agencies but Federal. And that does complicate matters 
sometimes because some of our locals are not used to receiving 
this type of involvement.
    And then the other thing that makes it different--and this 
brings up my old social work background--is the psychological 
effects of a terrorist event versus a natural event. All sorts 
of psychological studies would tell you people understand these 
``acts of God'' or something that is going to happen, may 
happen, and all of us will be affected by it. But a terrorist 
event brings a whole other level of fear and trepidation on the 
part of people that they cannot go on with their normal lives.
    To answer your question what we hope to achieve, for me it 
is cooperation and being unified in our preparedness, response, 
and recovery. We all need to be on the same page.
    Chairman Kyl. Thank you very much.
    Mr. Bettenhausen?
    Mr. Bettenhausen. Senator, let me followup with one of the 
questions you earlier had, which I think gets to some of your 
prevention questions, protection, and responding. And that was 
the issue of the classified transportation plan, and I want to 
echo Senator Gorton's comments on that, but reiterate something 
even more important.
    There are not going to be enough dollars--there is already 
a backlog--to provide security clearances with everybody who 
has a potential need to know. There was the thought with 
intelligence reform that we were going to change the way we 
were doing business, that instead of writing the classified, we 
would write to release; that we would truly embrace our 
partners, the first responders, and providing them with 
information; and not just information about potential threats 
but strategic information.
    We know that there is a lot of intent to do us harm, but 
what is that intent? What are their capabilities? What are you 
picking up in terms of what should we prioritize and be doing 
first with the scarce dollars we have? Is it chemical? Is it 
biological? Is it radiological? Is it nuclear? But help us with 
the strategic planning. Write to release. Change the way that 
we are doing business. Nobody needs to know sources, methods, 
and means in terms of how intelligence is collected. But, you 
know, by God, if a cyanide truck has been hijacked and is 
missing, not only does law enforcement need to know where to 
look for it, our first responders, our hospitals, our private 
sector folks need to be dusting off their plans on how they 
would deal with, you know, a cyanide situation.
    So we will never have enough clearances with the turnover 
and the backlog that we have even with the Federal Government. 
We need to make sure that we are taking us full on partnership 
and that we are looking at this information that needs to be 
shared strategically and across the entire first responder 
community, not just law enforcement but also fire, our public 
works, and our important private sector partners.
    Another problem if you have something with a classified 
transportation report, it is a problem that we had with the 
sort of--the inside-the-Beltway thinking, that we are the Feds, 
we know how to do it, and, you know, you out in the hinterlands 
don't have a clue. That was the first problem with NIMS version 
1.0. They never asked the State and locals how to do it. They 
never asked California: How have you been doing emergency 
management so effectively? Jeb Bush, how have you been doing 
it? And they went and they hired a contractor, and they came up 
with a very nice system that was then presented sort of as a 
fair accompli to State and locals and said, ``This ain't going 
to work.''
    When you go and you have your transportation plan, who owns 
those things? Who operates it? It may be that the Federal 
Government needs to have a strategic plan overall, but you need 
to be talking with the State and locals, the ones who are 
running and working these things from the very beginning, not 
that you have come and thought this and now isn't this great 
and present it to us--and, well, actually not present it to us, 
classify it.
    The other problem with classification, those of us who 
sit--I have my letter clearances up to SCI. To some extent, 
just don't pass the buck and say, look, I have now informed 
you, but you cannot tell anybody else. That does me no good. 
All that does it pass the buck. You need to help me with the 
information and bring that together, because, again, as you 
have pointed out, prevention is the No. 1 goal and priority, if 
we can stop it before it happens. And that's what the 
difference is in the planning in terms of what we need to do 
versus all hazards. You cannot turn--we cannot force a tornado 
to change. We cannot stop an earthquake from happening. But we 
can interdict, we can deter terrorist activities with better 
infrastructure protection, with better strategic intelligence, 
with better planning in terms of trying to prevent something 
from happening. That helps with the planning activities.
    And then in terms of sort of terrorists, I think some of it 
is that you have--the potential for the mass casualties and the 
overwhelming of systems and things that you talked about with 
cyber, that if you had a magnetic pulse in terms of what that 
is going to do with our cars that now have electronics and what 
it is going to do to our computer systems, how are we going to 
deal with these issues that become just very large scale very 
quickly.
    So those are some of the differences, but it is still the 
basics. As my good partner Henry Renteria was talking about, to 
some extent when you are a first responder and you are going to 
a collapsed building, you don't much care why it collapsed. Was 
it because of an earthquake? Was it because of a tornado? Was 
it knocked down by a hurricane? Or was it knocked down by the 
criminal acts of evil men? Our first priority is saving lives 
and preventing collateral damage, the kind of--even our 
domestic terrorists know to do the one-two strike. That's what 
we saw on 9/11. You know, Washington, D.C., New York. New York, 
tower one, tower two. I mean, it's an established thing, so you 
need to be thinking about it, and you have got those potentials 
to prevent.
    Exercises, very critical in terms of doing it, and with 
FEMA, we've got a statewide exercise program. That helps to 
develop better plans. Exercises are not about patting yourself 
on the back about what a great job we can do and how we can 
respond to it. It really is about testing your system, 
overloading it, push it to the point of failure so that you 
know how you can write those plans better, make them better, 
and respond better in a real instant. It is doing after-action 
reports. You know, unfortunately, we have more than our fair 
share of natural disasters in California. But the fortunate 
aspect out of it is we get a lot of lessons learned. But you 
cannot lose those things, and you need to be asking the 
questions: What went right and what went wrong? And how do you 
make sure the right things are incorporated and duplicated and 
the wrong things are pulled out of the system?
    The last thing, I forgot to thank, when I was thanking, the 
great staff that you have: the two Steves who we look forward 
to working with them, because I think you are right, we are 
just scratching the surface here, and to the extent that we can 
help you and work with your wonderful staff, we will to help 
flesh out some more of these issues.
    Chairman Kyl. Thank you very much, and you are right about 
our great staff.
    We are now a little pressed for time, so, Dr. O'Hanlon, 
would you--and then I am going to turn to Senator Feinstein and 
leave and have her conclude the hearing. But if you could--
    Mr. O'Hanlon. I will just say a few things, Senator. I am 
struck by how hard this problem is. I have done most of my work 
in my career in defense, which I think is easy compared--
national security, military issues, easy compared to these 
questions, because these questions involve local, State, and 
Federal efforts, they involve private sector. There is such a 
different type of threat from one area to another. I think it 
is just an inherently very challenging field of study.
    Let me give one example and stop. There is one major city 
in this country--I will not say which one--that tried to say, 
OK, which of our big buildings do we really have to protect, 
provide this local site protection for, having done all the 
prevention, having prepared some consequence management. And 
they went through and in their first iteration came up with a 
couple thousand sites. And they said, well, there is a logic 
that gets you to a couple thousand, but it is just too many to 
protect, so we have to try again.
    So they went through it, the same exercise, and got down to 
a few hundred. And they said it is still too many, and they 
finally did a third round and got to a few dozen.
    Well, how do we know they got the right answer? They did 
not really get the right answer. They were constantly trading 
things off, one against the other. They came up against a 
problem that was manageable in size and yet still ambitious in 
scope. That underscores for me the nature of the challenge 
here.
    One more example, and I will stop. Skyscraper. How do you 
protect skyscrapers? What is the appropriate level of 
protection? Is it making sure a truck bomb cannot be--cannot 
get within 100 feet by closing off side streets? Is it making 
sure that air intakes are all at least two stories above street 
level so people cannot put anthrax in? Is it making sure you 
have security guards who are well trained at every entrance so 
that people cannot sneak explosives up and create an apartment 
bomb the way they were worried in 2002 in New York?
    I think these are almost unanswerable questions, and the 
only way in which you can work toward pretty good answers is to 
have dedicated study ongoing from committees like this, from 
commissions like the 9/11 Commission, and from experts in the 
field.
    So it is just a way of saying this problem is inherently 
very hard, probably harder than any other problem I have 
studied in public policy. And so, therefore, I thank you for 
the ongoing attention from this Committee.
    Senator Feinstein. [Presiding.] Well, you are very welcome, 
and thank you.
    Let me just begin by putting in a statement from Senator 
Cornyn into the record.
    As I listen to this, and having functioned as a mayor, it 
occurs to me that what the Department of Homeland Security 
might be doing is preparing a series of advisory standards that 
can go to local and State jurisdictions in a number of 
different areas, operability being one of them.
    What should the standards be as you consider 
interoperability? And what are your options? What kind of 
equipment is available? How much does it cost? Let the local 
jurisdictions make their own decisions, but there are some 
technical advisory standards that are available, certainly 
standards for evacuation of an area.
    Now, in my city this becomes particularly dangerous. The 
uniform forces all live outside the city, across the bridges. 
If bridges come down, how do we get the uniform forces back? 
That has to be thought of long before a major earthquake or a 
terrorist attack.
    How do you evacuate the poor? How do you evacuate hospitals 
if you have to, nursing homes? I thought St. Rita's was just a 
terrible example of the absence of any kind of overall policy 
with respect to a nursing home where people watched water draw 
up to them, and then obviously drowned in it because they could 
not move. I mean, it was terrible.
    Emergency manuals. How do you prepare an emergency manual? 
What should be in that manual? How should you rehearse that 
manual? What kind of synthetic scenario should you practice out 
there based on your own individual needs geographically, 
politically, across this country? Standards for a family 
disaster plan. As you gentlemen have said today, families need 
to have their own plans.
    Well, I deal with this all the time. I am sure what I have 
is inadequate. It is put together helter-skelter, didn't pay 
much attention to it. I do not have a checklist, those kinds of 
things. If you store water, how often should you change that 
water storage? How often should you change batteries?
    I mean, just technical things that could go out to all 
Americans to know how they need to protect themselves in the 
first 48 hours of a disaster. You know, 22,000 people int he 
Department of Homeland Security, and this--
    Mr. Bettenhausen. It is 180,000.
    Senator Feinstein. I beg your pardon?
    Mr. Bettenhausen. It is 180,000.
    Senator Feinstein. You are right. Excuse me.
    Mr. Bettenhausen. It is 22 agencies.
    Senator Feinstein. That is right, 180,000, and they cannot 
seem to do this kind of work. I find that inexcusable because, 
to me, it is a no-brainer of a way that, without much cost, the 
Federal Government could use its expertise, use its reach, and 
use its ability to bring people together to prepare something 
which could be of real practice use for local jurisdictions.
    It may well be that the State of California can play a 
leadership role in this respect, and hopefully when your plan 
comes out in January you will share it with a lot of us so that 
we can take a good look at it and see what you have done.
    I would appreciate--and I think Senator Kyl would as well--
recommendations of what should we do with respect to the 
spectrum now. How should we proceed? Those recommendations I 
think would be very effective.
    But I don't really have any other questions. If you have 
any closing comments in addition, I would be happy to hear them 
before I close the hearing.
    Senator Gorton. Senator Feinstein, on that very last point, 
I believe Senator McCain will propose an amendment when that 
Commerce Committee bill comes to shorten the date on spectrum 
transfer.
    Senator Feinstein. Oh, good. I am happy to hear that.
    Senator Gorton. It will be a tough vote, but I think he 
will have that opportunity.
    Senator Feinstein. Good.
    Anybody else have a last comment? Mr. Renteria?
    Mr. Renteria. Yes. First of all, I would like to thank Matt 
for helping us thank everybody, because I think he helped us 
remember all the names. But I also wanted to invite you and 
other Committee members to our exercise that we are going to 
have in California on November 15th. It is the Golden Guardian 
event. Matt Bettenhausen and I have been working very closely 
on it. His office is funding it. And so this is another 
opportunity for you to see--and all of your staff to see, 
also--what we are doing in California. We are going to include 
an interoperability component also, so you can see--
    Senator Feinstein. I would like to come. I will probably be 
in the Miers hearings at that time if they are going on, but I 
will certainly have my staff be there.
    Mr. Renteria. I think we can have somebody show up.
    Senator Feinstein. I appreciate it.
    Mr. Renteria. Thank you again for this opportunity.
    Senator Feinstein. You are very welcome.
    Mr. Bettenhausen?
    Mr. Bettenhausen. And that is part of what another famous 
Californian said with exercise. We will also be working closely 
with FEMA, so we will trust but verify by doing the exercises 
as well.
    But I think you also pointed out with our poor communities, 
what you knew as a mayor, and what we also know from the State 
standards. It is not just poor communities that we need to make 
sure that we are doing extra planning for. It is also our 
special needs citizens that are out there, and it is one of the 
things that we have seen in terms of the exercises and 
practices we do with our nuclear power plants in terms of 
identifying those folks.
    But, you know, it is another role that citizens can plan, 
and we saw a lot of that with Katrina and Rita, knowing in your 
neighborhoods who needs help and helping us help identify them 
and helping--you know, being able to take care of your family 
and then also helping your neighbors.
    Senator Feinstein. Yes, I think even planning where to go. 
Most people, I would hazard a guess, don't know where they 
would go in an emergency. But having something that is 
realistic, that gets you out of the immediate area where you 
can sustain yourself for a period of time, making those 
arrangements ahead of time. And I do think that is the world 
that we live in, that we know there is some place we can go, 
where there is some help around us.
    Mr. Bettenhausen. Two things to followup, too. Not only 
does the California Office of Homeland Security and Emergency 
Management have a sort of--have a preparedness campaign, 
because the First Lady of California has taken this on as a 
personal mission, and she has been doing a great job.
    Senator Feinstein. That is great.
    Mr. Bettenhausen. The people who have turned out, to 
become--be responsible for yourselves and be prepared and be 
ready. But www.ready.gov has the listing of how you can prepare 
a personal communications, a family communications plan, the 
kind of kits that you have. And an easy way to remember how to 
sort of restock in and out of there is, as you turn your clocks 
forward and back, switch the canned goods and the water out of 
it. The same thing that you should be changing your smoke 
detector batteries. It is an easy way to remember it. That is 
the time, you know, when you are doing those to--
    Senator Feinstein. That is a very good idea.
    Mr. Bettenhausen. That is when you should be doing the rest 
of your work as well.
    Senator Feinstein. See, I think to some extent we get so 
esoteric, when most of this is good, solid, practical planning 
ahead of time. And I do not believe that the cities of America 
are really equipped for a major disaster.
    Let me just end with one thing. I think it is very 
important. In California, we have one American city that 
doesn't have 100-year flood protection, and that is Sacramento. 
And the people of Sacramento should know this. If we have an 
earthquake and the levees go down, the flooding potential for 
Sacramento is enormous. And I very much appreciate the fact 
that the Governor wants to be of help. We want to try to get 
some money to facilitate maximum levee repair within a 
reasonably short period of time to protect the city against the 
loss of human life. And I think we have agreed that that is our 
No. 1 priority.
    I met yesterday with Congresswoman Matsui. I know that is 
hers. And we would really welcome continuing working with the 
Governor's office to see that that happens.
    Mr. Bettenhausen. And the entire California delegation.
    Senator Feinstein. Yes, absolutely. Absolutely.
    Mr. O'Hanlon, do you have a comment to end this thing on?
    Mr. O'Hanlon. No. Thank you, Senator.
    Senator Feinstein. Well, thank you all very, very much. The 
hearing is adjourned. Thank you.
    [Whereupon, at 12:38 p.m., the Subcommittee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC] [TIFF OMITTED] T5378.001

[GRAPHIC] [TIFF OMITTED] T5378.002

[GRAPHIC] [TIFF OMITTED] T5378.003

[GRAPHIC] [TIFF OMITTED] T5378.004

[GRAPHIC] [TIFF OMITTED] T5378.005

[GRAPHIC] [TIFF OMITTED] T5378.006

[GRAPHIC] [TIFF OMITTED] T5378.007

[GRAPHIC] [TIFF OMITTED] T5378.008

[GRAPHIC] [TIFF OMITTED] T5378.009

[GRAPHIC] [TIFF OMITTED] T5378.010

[GRAPHIC] [TIFF OMITTED] T5378.011

[GRAPHIC] [TIFF OMITTED] T5378.012

[GRAPHIC] [TIFF OMITTED] T5378.013

[GRAPHIC] [TIFF OMITTED] T5378.014

[GRAPHIC] [TIFF OMITTED] T5378.015

[GRAPHIC] [TIFF OMITTED] T5378.016

[GRAPHIC] [TIFF OMITTED] T5378.017

[GRAPHIC] [TIFF OMITTED] T5378.018

[GRAPHIC] [TIFF OMITTED] T5378.019

[GRAPHIC] [TIFF OMITTED] T5378.020

[GRAPHIC] [TIFF OMITTED] T5378.021

[GRAPHIC] [TIFF OMITTED] T5378.022

[GRAPHIC] [TIFF OMITTED] T5378.023

[GRAPHIC] [TIFF OMITTED] T5378.024

[GRAPHIC] [TIFF OMITTED] T5378.025

[GRAPHIC] [TIFF OMITTED] T5378.026

[GRAPHIC] [TIFF OMITTED] T5378.027

[GRAPHIC] [TIFF OMITTED] T5378.028

[GRAPHIC] [TIFF OMITTED] T5378.029

[GRAPHIC] [TIFF OMITTED] T5378.030

[GRAPHIC] [TIFF OMITTED] T5378.031

[GRAPHIC] [TIFF OMITTED] T5378.032

[GRAPHIC] [TIFF OMITTED] T5378.033

[GRAPHIC] [TIFF OMITTED] T5378.034

[GRAPHIC] [TIFF OMITTED] T5378.035

[GRAPHIC] [TIFF OMITTED] T5378.036

[GRAPHIC] [TIFF OMITTED] T5378.037

[GRAPHIC] [TIFF OMITTED] T5378.038

[GRAPHIC] [TIFF OMITTED] T5378.039

[GRAPHIC] [TIFF OMITTED] T5378.040

[GRAPHIC] [TIFF OMITTED] T5378.041

[GRAPHIC] [TIFF OMITTED] T5378.042

[GRAPHIC] [TIFF OMITTED] T5378.043

[GRAPHIC] [TIFF OMITTED] T5378.044

[GRAPHIC] [TIFF OMITTED] T5378.045

[GRAPHIC] [TIFF OMITTED] T5378.046

[GRAPHIC] [TIFF OMITTED] T5378.047

[GRAPHIC] [TIFF OMITTED] T5378.048

[GRAPHIC] [TIFF OMITTED] T5378.049

[GRAPHIC] [TIFF OMITTED] T5378.050

[GRAPHIC] [TIFF OMITTED] T5378.051

[GRAPHIC] [TIFF OMITTED] T5378.052

[GRAPHIC] [TIFF OMITTED] T5378.053

[GRAPHIC] [TIFF OMITTED] T5378.054

[GRAPHIC] [TIFF OMITTED] T5378.055

[GRAPHIC] [TIFF OMITTED] T5378.056

[GRAPHIC] [TIFF OMITTED] T5378.057

[GRAPHIC] [TIFF OMITTED] T5378.058

[GRAPHIC] [TIFF OMITTED] T5378.059

[GRAPHIC] [TIFF OMITTED] T5378.060

[GRAPHIC] [TIFF OMITTED] T5378.061

[GRAPHIC] [TIFF OMITTED] T5378.062

[GRAPHIC] [TIFF OMITTED] T5378.063

[GRAPHIC] [TIFF OMITTED] T5378.064

[GRAPHIC] [TIFF OMITTED] T5378.065

[GRAPHIC] [TIFF OMITTED] T5378.066

[GRAPHIC] [TIFF OMITTED] T5378.067

[GRAPHIC] [TIFF OMITTED] T5378.068

[GRAPHIC] [TIFF OMITTED] T5378.069

[GRAPHIC] [TIFF OMITTED] T5378.070

[GRAPHIC] [TIFF OMITTED] T5378.071

[GRAPHIC] [TIFF OMITTED] T5378.072

                                 <all>

</pre></body></html>
